<html>
<title> - THE PRESIDENT'S FY 2007 BUDGET: RISKED-BASED SPENDING AT THE TRANSPORTATION SECURITY ADMINISTRATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
     THE PRESIDENT'S FY 2007 BUDGET: RISKED-BASED SPENDING AT THE 
                             TRANSPORTATION 
                        SECURITY ADMINISTRATION 
=======================================================================
                                HEARING

                               before the

                        SUBCOMMITTEE ON ECONOMIC
                        SECURITY, INFRASTRUCTURE
                     PROTECTION, AND CYBERSECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 16, 2006

                               __________

                           Serial No. 109-66

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE

36-325 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


























                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

        .........................................................

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity



                Daniel E. Lungren, California, Chairman

Don Young, Alaska                    Loretta Sanchez, California
Lamar S. Smith, Texas                Edward J. Markey, Massachusetts
John Linder, Georgia                 Norman D. Dicks, Washington
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Mike Rogers, Alabama                 Zoe Lofgren, California
Stevan Pearce, New Mexico            Sheila Jackson-Lee, Texas
Katherine Harris, Florida            James R. Langevin, Rhode Island
Bobby Jindal, Louisiana              Bennie G. Thompson, Mississippi 
Peter T. King, New York (ex          (ex officio)
officio)

                                  (II)




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Economic Security, Infrastructure Protection, and Cybersecurity     1
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    15
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    10
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    24
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................     2
The Honorable Stevan Pearce, a Representative in Congress From 
  the State of New Mexico........................................    11

                               Witnesses

The Honorable Kip Hawley, Administrator, Transportation Security 
  Administration, Department of Homeland Security
  Oral Statement.................................................     4
  Prepared Statement.............................................     5


      THE PRESIDENT'S FY 2007 BUDGET: RISK-BASED SPENDING AT THE 
                             TRANSPORTATION



                        SECURITY ADMINISTRATION

                              ----------                              


                      Thursday, February 16, 2006

             U.S. House of Representatives,
                    Committee on Homeland Security,
                         Subcommittee on Economic Security,
              Infrastructure Protection, and Cybersecurity,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
Room 2261, Rayburn House Office Building, Hon. Daniel Lungren 
[chairman of the subcommittee] presiding.
    Present: Representatives Lungren, Pearce, Markey, Dicks, 
DeFazio, and Jackson-Lee.
    Mr. Lungren. [Presiding.] The Committee on Homeland 
Security's Subcommittee on Economic Security, Infrastructure 
Protection, and Cybersecurity is meeting to examine the 
president's fiscal year 2007 budget request for the 
Transportation Security Administration.
    I would like to welcome everyone to this hearing. Today, we 
have the pleasure of having the TSA administrator, the 
Honorable Kip Hawley, to give the administration's perspective 
on the budget.
    We are pleased to welcome you here.
    The annual budget process is an important ritual for both 
the administration and Congress. It is not, as some would 
believe, a means to secure higher funding levels for our pet 
projects. Instead, it represents an opportunity to step back, 
take a hard look at our priorities and refocus on our primary 
missions, understanding the successes and failures of the 
previous year as a key part of the resource management.
    The budget, as presented, asks for $6.3 billion for TSA, 
$4.7 billion of which would go toward aviation security. While 
I support the requested levels, I am concerned, as are others, 
that we may be spending too much on aviation relative to other 
homeland security priorities. We must do a better job driving 
down unnecessary costs and improving the effectiveness and 
efficiency of passenger and baggage screening.
    Ultimately, I think we are all in agreement that TSA's 
airport screening operations are too labor-intensive. We need 
to move to a system that has more capital-intensive to drive up 
performance and drive down operating costs. I would like to 
hear more about the administration plans to fund new inline EDS 
systems.
    The good news, Administrator Hawley, is that during your 
short tenure we have already begun to see improvements in TSA. 
The quick deployment of FAMS during Hurricane Katrina, flying 
in screeners to help the evacuation of Houston prior to 
Hurricane Rita, as well as trouble-free holiday seasons are 
testaments, I think, to your leadership and preparedness.
    The risk-based changes to the CAPPS system and I believe 
prohibited items list were unpopular and difficult decisions. I 
applaud you for attempting to show the agility of a department 
that is necessary for us to reassess our resources and 
reallocate them according to changing intelligence information 
and our best judgment as to what the current greatest risk is.
    The challenge, though, is that there is still a lot more 
work to do. EDS maintenance costs are projected to increase by 
17 percent next year. We are nearing the end of the useful life 
of the original machine procured during TSA's standup. The big 
bill may be just around the corner if we do not begin making 
the necessary preparations today.
    Also affecting costs are on-the-job injuries. Last year, 
TSA reached a milestone. As I understand it, she had more on-
the-job injuries than any other federal agency. By some 
measures, it was more dangerous to TSA than it was to be 
working actually in line.
    The budget projects the workers' comp claims will jump 
another 57 percent in fiscal year 2007. If this is true, it is 
clearly unacceptable. We need to get a handle on these 
injuries, not just because of the direct costs but also because 
of the effect they have on attrition, absenteeism and morale.
    Screener attrition rates are still very high by our 
estimates. TSA will spend almost $15,000 to recruit, hire and 
train each new screener. We can cut down on the turnover rate. 
If we could cut it in half, we would save about $70 million 
annually. I look forward to hearing more about the proposed 
screener retention program.
    Lastly, I am disappointed in the proposed restructuring of 
the airline passenger fee. If the administration seeks to raise 
a $1.33 billion or $1.34 billion in new security revenue, it 
ought to be directed on new security programs. And we would 
like to hear about that.
    So I thank you for appearing today, and I look forward to 
your testimony.
    The ranking member is recognized for 5 minutes, and maybe 
your sound system will work.
    Mr. Markey. Thank you, Mr. Chairman, and I thank you for 
holding this important hearing with Assistant Secretary Hawley, 
and we thank you all for being here with us this afternoon.
    Mr. Hawley, I have written to you and I have written to 
Secretary Chertoff objecting to the decision made by TSA, by 
President Bush to allow for four-inch scissors to be brought 
back into the passenger cabins of planes in the United States.
    Four and a half years ago, in September of 2001, Mohammad 
Atta and nine other terrorists, in Boston, in my district, used 
a device like this to take over two planes and to begin a 
terrorist war against our country. They killed several hundred 
people from Massachusetts as they were on their way to New York 
City to finish their destruction of what had been a very 
tranquil that we had lived in.
    Now, you have decided to ban, Mr. Hawley, these devices, 
and you have decided to ban knives of this length, but you, 
President Bush have decided to allow the next generation of 
Mohammad Attas to bring scissors of this length onto planes, 
scissors that could be used to execute the very same kind of 
crime that Mohammad Atta and those other nine perpetrated in 
Boston, on September 11, 2001.
    Now, if you have banned a knife this length, if you have 
banned box cutters, it makes no sense for you not to ban these 
scissors, which are now flying in planes all over our country 
in the passenger cabins. Either they should all be legal or 
they should all be illegal.
    But you cannot have it both ways, Mr. Hawley. If people are 
going to be searching for these kind of devices and they find 
the scissors, it is just as easy for them to throw them away as 
well.
    Now, my bill now has 50 co-sponsors; it is bipartisan right 
down the line. It is everyone from me to Dan Burton from 
Indiana that wants these devices banned. We have the 
Association of Flight Attendants, which is 46,00 flight 
attendants that want them banned. We have the Association of 
Professional Flight Attendants, a different group, with 23,000 
flight attendants who wants them banned.
    The Federal Law Enforcement Officers Association, including 
all federal air marshals, wants them banned. The Coalition of 
Airline Pilots Association, which includes Southwest, American, 
UPS and other carriers, also opposes TSA's decision.
    And the families of the September victims have come out in 
opposition to the decision of you and President Bush to allow 
these devices, these killing devices back into passenger cabins 
of American planes.
    I do not think because you have a problem with the number 
of screeners that the right answer is to do less screening. We 
need more screeners, not less scrutiny. And these are the 
experts--the flight attendants, the air marshals, the families 
of the victims of 9/11 who are begging the administration to 
reverse its decision before we see the repetition of that 
catastrophic event on September 11.
    And that will be, Mr. Hawley, where I am going to be 
grilling you this afternoon, because I do not think you can 
make the distinction between these killing devices.
    Thank you, Mr. Chairman.
    Mr. Lungren. Thank you. I think my mike is now working.
    The other members of the committee are reminded that 
opening statements may be submitted for the record.
    We are pleased to have the TSA administrator, the Honorable 
Kip Hawley, to give testimony on the important priorities in 
the president's budget. And, of course, I would just remind you 
that your entire written testimony will appear in the record, 
so we ask that you limit your oral testimony to approximately 5 
minutes.
    And the chair now recognizes Assistant Secretary Hawley.

     STATEMENT OF THE HONORABLE KIP HAWLEY, ADMINISTRATOR, 
TRANSPORTATION SECURITY ADMINISTRATION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Hawley. Thank you, Mr. Chairman, Congressman Markey, 
distinguished members of the Committee. I appreciate your 
introductory comments and look forward to discussing some of 
the issues as we go.
    The President's proposed budget for fiscal year 2007 
reflects a strong commitment of President Bush, Secretary 
Chertoff, and TSA to the security of our Nation's 
transportation systems.
    I am proud to serve under Secretary Chertoff who is 
revitalizing the Department, and in a very short time has 
gotten all of us on the same page regarding a clear DHS 
strategy, and has made it a no excuses priority for components 
like TSA to work in concert with other Department partners.
    For TSA, this means four key principles: One, making 
investments and operational decisions based on risk; two, 
taking the initiative away from terrorists by introducing 
unpredictability in our security processes; three, using 
intelligence to get ahead of the threat; and four, rebuilding 
and leveraging existing security network partnerships.
    Because TSA has direct responsibility for aviation 
passenger and baggage screening, aviation-related programs 
represent the bulk of our budget request. TSA has requested a 
total of $4.7 billion for aviation security.
    Technology investments continue to be a major part of our 
request, including $865 million to fund the acquisition, 
replenishment, installation and maintenance of passenger and 
baggage screening systems.
    Just as we make investments in capital to improve both 
efficiency and effectiveness, it is critical that we manage and 
deploy our human resources based on the principles of risk, 
flexibility, and preparedness.
    Over the last several months, we have carefully examined 
key workforce metrics and engaged our Transportation Security 
Officer (TSO) workforce on how to make improvements. Based on 
their input and our analysis, we are approaching these issues 
from several angles, including reducing attrition by creating a 
performance-based pay system; retention incentives for part-
time TSOs and opportunities for career advancement within the 
TSO job category; improving effectiveness, not only by reducing 
turnover but by enhancing the skills of our TSO workforce 
through training; and continuing to reduce injury rates by 
reengineering baggage screening areas, focusing first on 
airports with the highest injury rates and quickly introducing 
low-cost solutions like roller tables.
    We believe the changes included in our fiscal year 2007 
budget will provide the necessary resources to implement these 
solutions.
    Our responsibilities in surface transportation security, 
while funded with fewer direct federal dollars, are also 
critically important. I, and the senior leadership at TSA and 
DHS, spend a great deal of personal time in this area. Working 
in partnership with federal, state, local and industry 
stakeholders, TSA is focused on the goals of getting ahead of 
terrorists with good intelligence, good analysis, and good 
information sharing, as well as building a more flexible threat 
response capability.
    Please do not judge our surface transportation security 
effectiveness by simply looking at the amount of resources 
focused on detecting or responding to an attack that is already 
underway. Working with others in and out of government, our 
focus is to preempt terror attacks, disrupt them before an 
attack is in progress. This is a more effective use of 
resources and a much more successful approach for protecting 
Americans in every part of the transportation system. It is 
that approach that is reflected in this budget.
    We have already restructured TSA headquarters operations to 
provide strategic focus and serve as an information resources 
for each mode. General managers and staff are now in place, and 
we are building risk-based security strategies and programs to 
establish standards, assess and inspect security operations, 
and optimize the use of all of our security resources.
    TSA's budget request includes $37 million dedicated solely 
to surface transportation security. In addition, we have 
requested $21 million for TSA's Transportation Security 
Intelligence Service, which supports intelligence and 
information sharing in all transportation modes. These funds 
are further supplemented by a requested $600 million for 
targeted infrastructure grants administered by the DHS state 
and local program office.
    Mr. Chairman, I look forward to working with the 
subcommittee for the coming year. Thank you again for the 
opportunity to testify, and I look forward to answering your 
questions.
    [The statement of Mr. Hawley follows:]

             Prepared Statement of the Honorable Kip Hawley

    Good afternoon Chairman Lungren, Ranking Member Sanchez, and 
distinguished Members of the Subcommittee. Thank you for the 
opportunity to appear before the Subcommittee to discuss the 
President's budget request for the Transportation Security 
Administration (TSA) for fiscal year (FY) 2007.
    The President's Budget reflects the strong commitment of President 
Bush, Secretary Chertoff, and TSA to the continued security of our 
Nation's transportation systems. It recognizes the need for sustained 
investment in transportation security, as well as the imperative to 
manage and deploy our human and capital resources based on the 
principles of risk, flexibility, and preparedness.

    In particular, the President&rsquo;s budget requests:
        <bullet> $2.9 billion to maintain and leverage the skills of an 
        agile TSA aviation screening workforce, by enhancing explosives 
        detection and other critical skills, improving retention rates, 
        and reducing injuries.
        <bullet> $865 million to fund the acquisition, replenishment, 
        installation, enhancement and maintenance of passenger and 
        baggage screening systems.
        <bullet> $699 million to support the sustained strategic 
        deployment of a well-trained Federal Air Marshal Service to 
        detect, deter, and defeat terrorist or criminal acts.
        <bullet> $131 million for credentialing and vetting programs, 
        including $40 million for implementation of a new passenger 
        pre-screening process.
        <bullet> $37 million to enhance TSA&rsquo;s capability to 
        respond to threats and events in the rail, transit, trucking, 
        and maritime transportation sectors, and provide information 
        and support to local government and private sector companies 
        who share responsibility for security in these sectors.
    In total, we request an FY 2007 budget of $6.3 billion, reflecting 
a modest $137.9 million increase (2%) over the enacted FY 2006 budget.
    As directed in our Appropriations Acts and consistent with the 
analysis of the Government Accountability Office, we have initiated 
collection of increased levels in the air carrier fee. We have 
estimated a collection level of $448 million in FY 2007 and also 
anticipate receiving then $196 million of retroactive collections.

Risk Management
    Secretary Chertoff has refocused the resources and activities of 
the Department of Homeland Security on the greatest security risks. As 
we implement this standard in TSA, we are prioritizing our actions to 
address threats and vulnerabilities that will have the most serious 
consequences, particularly in terms of lives lost, serious impacts on 
our transportation networks, and economic disruption. We have already 
begun to make operational and organizational changes at TSA that 
support Secretary Chertoff's risk-based strategy.
    You have seen evidence of this shift in priorities in the recent 
changes to TSA's airport security screening protocols. These changes 
were based on a systematic review of the full range of measures we now 
employ to mitigate the risk of a terrorist attack on or using an 
aircraft, as well as the additional measures now available to us, 
including new technologies. Our analysis considered a variety of 
potential changes, including changes to the prohibited items list and 
screening procedures at TSA checkpoints, improved training in 
explosives detection, and the deployment of additional explosives 
detection equipment. The changes we adopted reflect the new and 
evolving threat environment, as well as what has already been done in 
the aviation sector to narrow our vulnerabilities.
    Our FY 2007 budget request is consistent with this risk-based 
focus. Of particular note, TSA seeks a total of $865 million, to 
purchase and deploy new screening technology and maintain current 
equipment. This request is consistent with TSA's baggage and checkpoint 
screening strategic plans. The request includes an increase of $34 
million for explosive detection systems maintenance, and an increase of 
$8.4 million to deploy and maintain additional equipment at 
checkpoints, such as whole body imaging systems, automated explosives 
spot samplers, and cast and prosthesis scanners.
    Like other TSA security programs, our cargo security strategy 
relies on security threat assessments and a variety of random screening 
techniques, including the use of screening technology, canine explosive 
detection teams, and physical examination of cargo. Randomness 
contributes to increased security by making it more difficult for 
potential terrorists to plan and carry out attacks.
    Each year, an estimated 23 billion pounds of cargo is shipped by 
air within the United States. About one-quarter of this cargo is 
carried on passenger aircraft; three-quarters is transported on all-
cargo planes. All cargo carried on a passenger plane has been shipped 
and handled only by companies that have security programs meeting TSA 
requirements and that are subject to TSA security inspections. Packages 
that are hand-delivered to airline ticket counters for shipment are 
subject to TSA screening at approximately 250 airports and to TSA-
approved airline screening procedures at all other airports. In 
addition, more than 350 canine explosives detection teams work at 85 
airports nationwide conducting random screening of cargo and 
surveillance of cargo facilities. Any cargo to be carried on all-cargo 
planes that could conceivably contain a stowaway hi-jacker is subject 
to random screening and physical examination by the air carrier. In 
addition, in order to further mitigate the threat of a hi-jacking, TSA 
does not permit additional passengers to ride on all-cargo planes. For 
FY 2007, $55 million is requested for TSA's air cargo security program 
to support 300 air cargo security inspectors, the Known Shipper 
Program, and the Freight Assessment Program.

Flexibility and Unpredictability
    All of the changes we instituted last fall--in our explosives 
detection capability, TSA screening protocols, and the prohibited items 
list--are important to maintaining and improving the viability of our 
aviation security processes. TSA must be able to adapt quickly to 
changes in terrorist tactics, deploy our resources effectively based on 
risk, and use unpredictability as a means to disrupt terrorist plots. 
The flexibility to make changes quickly is vital to our mission. We 
must retain the ability to move away from measures that are no longer 
needed and to move decisively when changes are required.
    Agility, flexibility, and unpredictability are important security 
concepts that must be applied throughout the transportation network, in 
every mode. In London, Madrid, and elsewhere, terrorists have 
demonstrated their ability to carefully plan attacks and to adapt their 
plans in order to take advantage of and defeat even sophisticated 
security systems. In the aviation arena, this led us to institute 
additional random checkpoint screening in conjunction with the changes 
I discussed earlier. It has also led us to expand our testing of 
behavior observation techniques to identify behaviors indicative of 
stress, fear and/or deception in order to focus appropriate resources 
on determining whether an individual presents a higher risk.
    In other sectors, such as transit and rail, where local governments 
and law enforcement agencies and private sector operators and providers 
have primary responsibility for security, TSA is working to develop and 
implement risk-based strategies to support and supplement these 
efforts. One important component of our strategy is creating the 
capability to quickly deploy TSA security assets in a variety of 
transportation modes--both in response to threats and as part of our 
effort to insert additional elements of unpredictability into our 
security protocols.
    In December, TSA launched a pilot test of our ``surge'' 
capabilities in several cities over the holiday season. TSA security 
and law enforcement teams, including canine teams, were sent to these 
communities to augment and support local law enforcement and security 
in a variety of transportation modes--transit, rail, and intercity bus 
systems. Our goal was to test our ability to move quickly enough to 
make a difference under threat conditions. And not surprisingly, we 
learned a lot.
    First and foremost, we learned that we need to improve on-going 
communication links and information sharing through drills. We must be 
ready to move when and if the need arises. So we will be working with 
high risk communities to acquire a knowledge base about their 
transportation systems and develop operational relationships and 
communications capabilities. We will continue to disrupt terrorist 
planning efforts and to ensure that TSA is value-added to communities 
in a variety of transportation modes, particularly under elevated 
threat conditions.
    We do not, of course, rely solely on surge teams to support surface 
transportation security programs. The President&rsquo;s FY 2007 budget 
requests a total of $37 million to conduct vulnerability assessments 
and corporate security reviews, develop and deliver security training 
programs, conduct compliance inspections, sponsor and participate in 
security exercises, and serve as an information center for stakeholders 
in every transportation mode.

Getting Ahead of Terrorists
    Although many of TSA's most visible programs, like aviation 
checkpoint screening, are intended to physically prevent terrorists 
from carrying out a planned attack, the reality is that much of what 
TSA does is focused on stopping terrorists before they launch an 
attack.
    Information, analyzed and shared, is the heart of this defense. 
That is why we are working to make TSA an information resource to 
support our partners and stakeholders in transportation security. Our 
goal is to make sure that our government and private sector partners 
have timely information and communications from us, so that we all can 
be as effective as possible--not only to respond to terrorism, but to 
prevent it, as well.
    As you know, TSA also operates a robust intelligence office that 
analyzes and disseminates information about threats to transportation 
security, serves as a liaison to the Intelligence Community and 
intelligence components of law enforcement agencies, and supports TSA's 
ability to account for and properly manage sensitive and controlled 
documents and information. The information and analysis developed by 
this office forms the core of our threat analysis function and supports 
our agency-wide effort to allocate resources and conduct operations 
based on an assessment of risk.
    In FY 2007, the President's Budget requests $527 million for 
Transportation Security Support, including $21 million for 
Intelligence, $296 million for headquarters administration, and $210 
million for Information Technology Core Support activities.
    Closely linked to our intelligence and information sharing effort 
are TSA's vetting and credentialing functions, some of which are 
already in place and some of which are still under development. These 
programs include the Crew Vetting Program, the Alien Flight Student 
Program, the Transportation Worker Identification Credential Program, 
the Secure Flight Program, and Registered Traveler. Each of these 
programs builds upon the work of the law enforcement and intelligence 
agencies that provide the information necessary to prescreen passengers 
and transportation workers, and each program is built upon the premise 
that our strongest defense against terrorism is to detect terrorists 
before an attempt to attack. TSA proposes an overall funding level of 
$130.8 million for these programs, of which $ 76.1 million would come 
from fee revenue.

TSA Workforce Management
    Based on the level of support required in FY 2006 and requested in 
FY 2007, we have adjusted the allocation of our Transportation Security 
Officers (TSO) to 43,000 FTE. In addition, by restructuring and 
refocusing our activities based on risk and maximizing the use of our 
personnel resources, we have reduced headquarters staffing by 164 
positions, largely through attrition. However, our FY 2007 request 
includes $7.5 million for 30 additional FTE to improve TSA's 
acquisition function. Much of the work of TSA is accomplished through 
contracts, particularly the purchase and deployment of new 
technologies. This additional staffing will help TSA strengthen its 
procurement processes and controls as well as enhance the program 
management function throughout the agency.
    We recognize that simply managing to a budget is not sufficient; we 
must also improve our effectiveness and address the underlying issues 
that drive our workforce costs, including hiring practices that do not 
meet our current requirements, high employee turnover rates, and 
unnecessarily high on-the-job injury rates.
    As you know, when TSA was created in 2002, a centralized hiring and 
human resources infrastructure was created to support the rapid stand-
up of the Federalized screening workforce. Now that the agency is in an 
attrition-based hiring mode, that centralized model is no longer cost-
effective. We have begun, therefore, to develop a local hiring and 
training system in order to achieve efficiencies and better meet our 
current and expected hiring requirements. These requirements include an 
increase in the proportion of our screening workforce that is part-
time, to better match the daily peak-load workflow at airports.
    In addition, we recognize that high employee turnover rates drive 
up hiring and training costs. Yet our screening workforce has few 
upward mobility opportunities within their profession, and we have not 
fully utilized performance incentives. In order to encourage top 
performance, we are deploying a pay-for-performance system and have 
requested an additional $10 million in FY 2007 to support pilot 
programs to improve recruitment and retention.
    TSA has also taken steps to reduce TSO injury rates, which are a 
significant drain on the screening workforce. Based on the 
recommendations of our Screener Injury Task Force, we are implementing 
a nurse case management program TSA-wide to assist TSOs in getting the 
medical attention they need to return to work as soon as possible, and 
we are sending teams of industrial engineers to evaluate the 25 
airports with the worst injury rates and make recommendations for 
improvements, including simple configuration changes and small 
equipment purchases (like roller tables and mats) that could have 
significant impacts on injury rates. Nevertheless, because the 
workers&rsquo; compensation payments are invoiced in arrears, we are 
requesting an additional $20 million to support the prior year 
obligations owed to the Department of Labor.

Aviation Security User Fees
    Finally, I want to briefly discuss the Administration's proposal to 
restructure the Aviation Security User Fee. As you know, aviation 
passengers currently pay an aviation security user fee of $2.50 per 
enplanement, with a maximum of $5.00 per one-way trip. This fee has not 
increased since it was originally imposed in early 2002, following the 
9/11 terrorist attacks. Our proposal aligns the collection of the fee 
with the point at which the screening is done--upon entry into the 
aviation system. We propose a change in the aviation security fee 
structure to collect a flat fee of $5.00 per one-way trip. This will 
have the effect of equalizing the amount that travelers between major 
cities and travelers who must take connecting flights pay on a round-
trip basis. Restructuring the fee will also generate an additional $1.3 
billion in revenue, and bring the percentage of aviation security 
expenses covered by passenger user fees to approximately 72 percent. 
Currently, user fees cover only 42 percent of the costs of aviation 
security.

Closing
    Mr. Chairman, thank you again for this opportunity to discuss TSA's 
budget request and the steps we are taking to improve transportation 
security and the efficiency of our operations. I look forward to our 
continued work together and would be pleased to respond to questions.

    Mr. Lungren. Thank you very much for your testimony.
    Let me ask you about one of the smaller parts of your 
operation. You talked about surface transportation. I am 
concerned about railroads. I think, at least from our side of 
the table, we have only begun to scratch the surface with 
respect to that.
    I have a large rail yard just outside my district, used to 
be almost within a stone's throw of the home that I had for 
about 14 years; it is in Roseville, California. What degree of 
scrutiny is applied by your operation in terms of auditing, if 
you will, the security measures taken by the railroads at the 
present time?
    Mr. Hawley. Well, we have added 100 rail inspectors to 
TSA's surface transportation effort, and they are boots on the 
ground around the country that can do personal inspections on 
maintaining the integrity of what is reported as measures that 
are underway.
    In other words, the rail industry itself is responsible for 
the implementation of security measures and vulnerability 
assessments and preparedness in the event of an incident. We 
use our rail inspectors as a way to verify the records that are 
given to us.
    Mr. Lungren. What authority do they have?
    Mr. Hawley. They have pretty broad authority under the TSA. 
We have regulatory authority, inspection authority, and there 
is general authority that should there be view of an imminent 
security risk, they have authority to act. I should also add 
that we look at hazardous materials in its totality as opposed 
to just on rail or just on truck, and that we try to understand 
what common chemicals could be used as a weapon and try to 
trace them the whole supply chain.
    Mr. Lungren. I might just say for the record, I think it is 
apropos of Mr. Markey's comments that on March 2 we have 
scheduled a classified briefing with you for all the committee 
members concerning the decision-making process on the 
prohibited items listing, so that you can discuss in a SCIF 
those things that went into that so that we will be following 
up on some of this in an area that we cannot do publicly.
    I would like to ask the question that I am very concerned 
about, and that is this work-related injury claims among 
baggage screeners. I mean, it sounds absurd that it is more 
dangerous to be a baggage screener for TSA than virtually any 
other occupation in America. How did we get to that?
    Mr. Hawley. Well, it is my personal, internal number one 
priority. It was the first thing when I came on board. I saw 
exactly what you described in terms of too many injuries. I 
think a lot of it had to do with the speed with which TSA was 
stood up, particularly for checked baggage where the ergonomics 
of the work flow were not really the top priority. And, as you 
know, a lot of our machinery is not set up in the best way so 
people have to do lifting of heavy bags repeatedly all day 
long.
    We are working at it in a couple of ways. We put a nurse 
practitioner program in so we are able to get immediate medical 
attention and advice to those who get hurt. It also is my top 
priority in terms of our management metrics system to track the 
number of injuries. We are going after injuries versus going 
after claims. A lot of the data is based on what claims are 
made, and it is my experience from the private sector that the 
way to really move that number is to get after the injuries 
themselves, to measure them, understand them.
    Mr. Lungren. Well, let me ask it in another way, and that 
is I am familiar with San Francisco--
    Mr. Hawley. Yes.
    Mr. Lungren. --International Airport. Now, that does happen 
to have private screeners, and their injury rate, their rate of 
people not showing up because of injury is so much less than 
what I am seeing across the board. I made some inquiries with 
them and they suggested that they tried to make sure that 
people who could pick up bags are the ones that picked up bags, 
and I believe they have some of the inline systems in place as 
well and that from a management standpoint they seem to be able 
to handle it better.
    Mr. Hawley. Yes. They do an excellent job. They have a 
couple of things. They have dedicated baggage handlers for the 
heavy bags; they hire people who are specifically fit for that 
task, and those people are not transportation security 
officers.
    Mr. Lungren. Oh, we actually hire weightlifters to lift 
weights rather than screen.
    Mr. Hawley. I think that is a good way of putting it, yes.
    Mr. Lungren. Seems to make sense. It might make sense for 
the TSA federal employees to try and do the same sort of thing.
    Mr. Hawley. We are definitely looking at that. And the 
other piece of their program that I think is excellent really 
gets to the nurse program I was telling you about earlier. In 
San Francisco, immediately upon somebody being hurt they have 
somebody that the person goes up to in a particular office who 
immediately contacts the medical facility, and then they drive 
the injured person over to it. So it is very quick, which is 
good from the point of view of the person who is injured and 
also they assure that when the person is ready to get back to 
work that they do in fact.
    Mr. Lungren. Thank you very much. My time is expired. When 
we come back second round I want to ask you about getting 
emerging technology actually applied.
    Mr. Hawley. Sure.
    Mr. Lungren. The gentleman from the state of Washington is 
recognized for 5 minutes.
    Mr. Dicks. One of the most important steps in ensuring our 
transportation security is to ensure appropriate training for 
all employees. On the surface transportation side, TSA has not 
issued a requirement that railroads and mass transit systems 
train their employees. Do you intend to require such training 
in the future?
    Mr. Hawley. We are working within the transit community, 
and that is part of the security program that we track with 
them, and that is a very high priority part of the transit 
environment. On the rail training, we do not have anything on 
the regulatory side at this point, but, as you know, there is 
training in the rail industry. It is rather substantial. But 
that is something that we are looking at, as to what exactly 
that level of training is for the rail industry.
    Mr. Dicks. Now, in your budget here, you have an increase 
in the ticket tax to pay part of the cost of the TSA program?
    Mr. Hawley. Correct; yes, sir.
    Mr. Dicks. Would you explain that?
    Mr. Hawley. Sure. In the original bill for TSA, the 
Aviation and Transportation Security Act (ATSA) legislation, it 
was contemplated that user fees would pay for the aviation 
screening, and that is where the current tax comes from. Last 
year, as I am sure you know, TSA came forward with a proposal 
to increase that.
    The proposal this year is different in that it is more 
limited. Under the current system it is $2.50 a leg, a flight 
segment, which works against folks who do not take direct 
flights, as in rural environments. This proposal says it is a 
flat fee. You only go through screening once per flight. So it 
is the same $5 that you were going to pay twice at $2.50. In 
other words, it is $5, and it makes the people who would have 
paid just $2.50 also pay $5. So that is where the extra money 
comes from. And it is obviously directly related to the person 
who is benefiting from the service.
    Mr. Dicks. Now, in your presentation, you talk about 
retention issues with TSA screeners and your part-time people, 
it is over 50 percent of them leave, I assume, in a rather 
short period of time. But it costs you $10,000 to train these 
people, as I understand it.
    What are you doing to try to work to keep these--to improve 
your retention?
    Mr. Hawley. Yes. Well, we have had a Transportation 
Security Officer (TSO) Advisory Committee on that. That 
committee recently met with me and my senior group, and we are 
working through proposals now that would include some money for 
retention bonuses, looking at benefits for part-time workers, 
tuition perhaps for students, and health benefits for retirees.
    Your point on the part-time attrition is a very serious 
one, because in order to manage the most efficient workforce, 
we need to have a higher blend of the part-time worker, and 
with that level of attrition it is not a good economic model. 
Overall, it is 21 percent, but for the part-time workers, you 
are right, right now it is about 46 percent. So that is clearly 
the major pain point.
    Mr. Dicks. What kind of a schedule does a part-time worker 
work?
    Mr. Hawley. We try to get it to be a 4-hour block of time 
to match up with the rush hour, either in the morning or the 
afternoon.
    Mr. Dicks. Okay.
    Thank you, Mr. Chairman.
    Mr. Lungren. Thank you.
    The chair now recognizes the gentleman riding point, the 
lone ranger over there sitting by himself, the gentleman from 
New Mexico, Mr. Pearce.
    Mr. Pearce. I feel like the point of the spear, Mr. 
Chairman.
    [Laughter.]
    Mr. Hawley, I am taking a look through here at your 
numbers. What is your actual labor cost now?
    Mr. Hawley. We spend about $3 billion. The big budget item 
is clearly the Transportation Security Officer. So out of the 
$4.7 billion for aviation security, about $3 billion of that is 
for Transportation Security Officers.
    Mr. Pearce. $3 billion for salaries?
    Mr. Hawley. Yes, sir.
    Mr. Pearce. Now, am I mistaken, that was just when I was 
coming in, but the initial projection for the department was 
$100 million and then we overspent that by about $600 million, 
drove it up $720 million the first year, so now we are at $3 
billion.
    Mr. Hawley. I am not sure I followed the first part. What 
was the--
    Mr. Pearce. The initial numbers or estimates for cost for 
labor were going to be in the $100 million range and they ran 
to $700 million, and that is where The Washington Post put that 
article out that you are paying $1,000, $1,200 rent on $5 
extension cords and that sort of thing. That was the ramp-up 
that you referred to in--the rapid standup on page 5 that you 
are talking about came under great scrutiny by The Washington 
Post. And so you got basically the same--how many screeners did 
you start out with Year 1?
    Mr. Hawley. Well, we came down to 45,000. I do not recall 
exactly.
    Mr. Pearce. So you came down to 45,000. If my numbers are 
incorrect on this $100 million, $700 million, $3 billion 
transition, I would like to know, but I think I am correct.
    Mr. Hawley. I think the issue for today is that there was a 
lot done 2 or 3 years ago in response to put in controls and 
better acquisition systems for TSA, and it has not really been 
a problem over the last several years at TSA. Those controls 
are in place, and it is a more efficient system. I think the 
bigger cost is the turnover cost and is the injury cost. The 
combination of those two is bigger.
    Mr. Pearce. What is your workers' comp modifier?
    Mr. Hawley. I think $57 million. I know we had to move $20 
million over into that category this year extra.
    Mr. Pearce. Do you figure your modifier like we in the 
industry have to do? You do not have to figure your cost per 
unit per hour?
    Mr. Hawley. We are definitely going there. The Labor 
Department ends up paying it, and it is a hockey stick.
    Mr. Pearce. Have you checked fraud?
    Mr. Hawley. Yes.
    Mr. Pearce. Do you ever find anybody that is claiming to be 
hurt? That is a big problem in the industry. Maybe it is not 
here, but I suspect that there is.
    Mr. Hawley. Well, we have Internal Affairs that works on 
that, and that is clearly a piece of it.
    Mr. Pearce. What do you do when you find somebody that is 
fraudulently claiming--
    Mr. Hawley. Well, prosecute.
    Mr. Pearce. Have you had any convictions?
    Mr. Hawley. Not that I know of.
    Mr. Pearce. Have you prosecuted anybody?
    Mr. Hawley. I do not know. I have to get back to you on 
that.
    Mr. Pearce. What are the benefit costs, over $3 billion 
total package or is that benefits and--
    Mr. Hawley. That includes benefits.
    Mr. Pearce. So if we are going to break it down to benefits 
and labor, the $3 billion breaks how? I will let you get back 
to me on that.
    Mr. Hawley. It is about 30 percent benefit.
    Mr. Pearce. Thirty percent benefit?
    Mr. Hawley. Rough order of magnitude.
    Mr. Pearce. Mr. Chairman, you have to tell me when that 
light turns red. I cannot--
    Mr. Lungren. No, you keep going.
    Mr. Pearce. Okay. It is like an auction, he will tell me 
when I bid too high.
    So we have got 30 percent of the $3 billion in benefits, 
and you have got a benefit retention program. If I am a line 
officer, what are benefits going to look like to me when you 
are enhancing, trying to keep stable in there? What is my 
initial pay and what is the benefit, and what is that enhanced 
benefit that is going to keep me there?
    Mr. Hawley. Okay. Rough scale, $28,000 would be your entry-
level TSO. The benefits would be for the part-time employee who 
right now does not get any benefits. And that is the population 
that turns over at 46 percent. On the regular TSO, the full-
time TSO are--
    Mr. Pearce. So your benefits then of your part-time are 
going to be more than 30 percent of their salary.
    Mr. Hawley. We have not--
    Mr. Pearce. You cannot go in with partial insurance, you 
cannot go in with partial whatever, so--
    Mr. Hawley. I think that is a fair--
    Mr. Pearce. I think that is a fair assessment?
    Mr. Hawley. That is a fair thing. We have not got to that 
point yet. We are in the process now of costing the different 
options for the part-timers.
    Mr. Pearce. And how much were you requesting for these 
enhanced benefits that probably is the end of that--
    Mr. Hawley. Well, we are requesting in the 2007 budget $10 
million additional for--
    Mr. Pearce. How much is already being spent for benefits 
for these part-timers?
    Mr. Hawley. Well, that is what we need to figure out. The 
question for us is, does the $10 million give us enough 
leverage, enough leverage there for the part-time benefits or 
is there something else we can do?
    Mr. Pearce. Are you already spending money on part-time 
benefits? That was my question. You are asking for $10 million. 
Are you already doing something and that is on top?
    Mr. Hawley. No, sir. We have our regular fund that we use 
to pay our screener pay and benefits. We asked for an 
enhancement of $10 million to use for retention, and that is 
not broken out yet in the 2007 budget.
    Mr. Pearce. I think the chairman is telling me--I will wait 
till the next round, Mr. Chairman. Thank you.
    Mr. Lungren. The gentleman from Massachusetts is recognized 
for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman.
    I am trying to, Mr. Hawley, figure out what it will take 
for TSA to change the rules. If someone can be stabbed to 
death, a flight attendant, in a hijacking attempt by this 
knife, they surely could be stabbed to death with scissors.
    If a flight attendant is stabbed to death, would you 
consider changing the rules back to banning the scissors as 
well as the knives?
    Mr. Hawley. Well, we look at the whole issue of risk 
balancing constantly, and we believe that our security measures 
should be flexible.
    Mr. Markey. Can you tell me the difference between this 
knife and these scissors? Could you tell the committee for the 
record what the difference is?
    Mr. Hawley. Yes. Yes. We did our risk analysis and from a 
risk to the aircraft point of view, neither of those items are 
significant risk items.
    Mr. Markey. Why have you banned the knife?
    Mr. Hawley. We had ongoing discussions with 9/11 families, 
flight attendants, others as we went through the process, and 
it was very clear that the issue of the knives was one that 
they cared very deeply about. We did statistical analysis to 
look at, ``Okay, what do we benefit?'' The reason we are doing 
this is to be able to apply more time, more effort for 
explosive detection.
    The scissors and small tools related to about a quarter of 
the bags we opened; whereas, all knives, including the tiny 
ones and what you have in your hand there, were only about 9 
percent. So we took the input from the flight attendants 
specifically and the 9/11 families and said that on a tradeoff 
there was not enough incremental benefit for us.
    Mr. Markey. Well, just so you know, Mr. Hawley, which I 
made as a point in my opening statement, I will reiterate it, 
the flight attendants want scissors banned, the pilots want 
scissors banned, and the families of the 9/11 victims want 
scissors banned. They are all endorsing the bill, which Mr. 
Crowley from New York and Mr. Burton from Indiana and I have 
introduced.
    There is no distinction in the minds of the flight 
attendants, the pilots or the 9/11 families on this issue, and 
I think that either you had to go all one way or all the other. 
This makes no sense whatsoever to make this kind of a 
distinction knowing that here in Washington they are vigorously 
trying to have our amendment passed into law and that the 
flight attendants are actually picketing at airports, passing 
out literature to passengers asking them to contact their 
congressmen to ban these scissors.
    So I just do not see the distinction.
    Now, let me move on to a second issue, which is cargo on 
planes. As you know, Mr. Hawley, at each airport in America, 
every single day, every one of us has to take off our shoes, 
have our bags go through screening, have our carry-ons go 
through screening, but meanwhile TSA's policy is to allow on 
the very same plane unscreened air freight get right around the 
screening process.
    There is no requirement that an al-Qa'ida operative who is 
not even on the plane cannot put a piece of cargo on that plane 
that could cause a devastating, catastrophic explosion. There 
still is not in place in the Bush administration--and I cannot 
believe the president allows this to happen--a system that 
would have this kind of risk being posed to passengers on 
planes right now, all across America, on every single passenger 
plane.
    Can you once again try to explain to this committee why 
Members of Congress and every American has to take off their 
shoes, have their bags screened, have their checked bags go 
through screening and then allow that kind of huge loophole 
through which al-Qa'ida could exploit as a weakness to cause a 
catastrophic event?
    Mr. Hawley. Right. Well, the air freight on passenger 
planes is in fact screened, and there is a risk management 
basis for this.
    Mr. Markey. It is not physically screened, Mr. Hawley, not 
physically screened.
    Mr. Hawley. Let me just address the issue. So starting from 
the airplane and working back, what we have done is to allocate 
about 20 percent of our canine capacity to work the air freight 
issue. If you have an insider threat in the airport who puts a 
bomb into the hold, if it does not come through as a package, 
we want to be able to mitigate that. So we start with the dog 
teams that go from the airplane and then work back into the 
cargo facility.
    Mr. Markey. You do not use dog teams--
    Mr. Hawley. Yes, we do.
    Mr. Markey. --for passengers. You do not use dog teams for 
Mr. Lungren and I when we go through our airport. You use 
physical screening. Mr. Lungren and I take off our shoes every 
time we go through. There are no dogs sniffing in the general 
vicinity. Meanwhile, al-Qa'ida can put one of these packages 
on. If Mr. Lungren and I tried to carry that on, we would go 
through and the TSA screener would make us open that box.
    You allow that very same package to be placed on a plane by 
an al-Qa'ida operative without having ever been opened, without 
it having been screened the way Mr. Lungren and I, our package 
would have been screened. And that is not screening. That is a 
superficial, random attempt to identify packages that might be 
suspicious, but you do not have the level of scrutiny which 
serves as an effective deterrent to al-Qa'ida exploiting that 
loophole.
    Mr. Hawley. I think there are some facts--
    Mr. Lungren. The gentleman's time is expired but you can 
answer the question.
    Mr. Hawley. Okay. Back to the dogs. Dogs can find it if it 
is in the hold. The other thing is that any package that goes 
on a targeted flight, counter-to-counter, for instance, if they 
bring it and say, ``I want this package on that flight,'' it 
goes through the same explosive detection that your suitcase 
does in over 90 percent of the cases. Then you work back to the 
cargo environment, and, as you know, there is a designated high 
threat portion of the cargo that is physically screened. And, 
as you know, that has recently tripled in number. And that is 
just at the airport with physical screening.
    Then every package that goes on an aircraft has to be 
screened, it has to be known who the person is who is shipping 
it, it has to be known who the provider is that lets them near 
it. Then we have cargo inspectors who go out to enforce all 
that. So it is a layered security system that in fact provides 
a good level of security for air freight.
    Mr. Markey. Let me just say this in conclusion: If you are 
right, then we do not need TSA screeners; we just need dogs. It 
seems to be more effective. We should have dogs there. And I 
will tell you the truth: They do not file for as many workman 
compensation claims either. So it might solve Mr. Lungren's 
problem as well.
    Mr. Lungren. Big dogs.
    Mr. Markey. But we know that dogs are not as good as human 
beings. We know that physical inspection of TSA inspectors is 
much more likely to identify problems.
    Mr. Lungren. The gentleman's time has expired several 
times.
    Now, the gentleman from Oregon is recognized for at least 5 
minutes.
    Mr. DeFazio. Thank you.
    Thank you, Mr. Chairman.
    I am sorry, we were entertaining your boss, Mr. Chertoff 
downstairs in the Transportation Committee, so that is why I am 
late, not that I do not maintain a vital interest in your 
agency.
    Just to sort of follow up on Mr. Markey's concerns, he has 
emphasized the cargo side, I have always emphasized the baggage 
and carry-on side. And I want to know why we are not entering 
into a single new letter of intent for an inline explosive 
detection system in this country when, first off, we know that 
you can get them to legitimately reduce your workforce and have 
better security and a more efficient aviation system.
    Why can't the federal government enter into any new letters 
of intent? For instance, Portland, Oregon, has figured out you 
get a net return in 18 months, we have better screening of the 
baggage. A lot of people do not know.
    I mean, yes, we are screening the baggage, but we are not 
screening it all with high technology equipment. Some people 
are using swabs. Sometimes they swab inside the bag, sometimes 
outside. And as you know from the reports, swabbing the outside 
of a bag of a careful bomb maker will tell you absolutely 
nothing. Maybe swabbing the inside of the bag will not tell you 
anything either. You need to see into those bags better.
    So, one, letters of intent.
    And then, second, after you address that, if you could 
address where we are at on how quickly we are moving to improve 
bomb detection technology on persons, at the checkpoint and in 
carry-on bags. Since, again, for about the fifth time and for 
the third, I think, person in your position, I am saying the 
Russian incident was the last wakeup call we get before someday 
we wake up and read the newspapers and a bunch of planes went 
down by suicide bombers who wore suicide belts and/or they had 
sheet-lined briefcases and the detonator was around them.
    I am told Mr. Chertoff said this morning, ``We are looking 
for detonators.'' I throw into the middle of my briefcase an 
iPod, a cell phone, a BlackBerry, three different charging 
devices, and it is all piled in there. And you are going to 
tell me that you'll find the car charger that looks an awful 
lot on the screen to me like a detonator device. And Ramzi 
Yousef--you know about that. Anyway.
    Mr. Hawley. Yes, sir. And in the tragedy that you described 
in Russia, you would not want me to come up here and say, ``At 
least there were not scissors on that plane.'' We are on 
exactly the same wavelength as far as the threat that 
explosives present and the vulnerabilities that we have.
    Mr. DeFazio. No, and I appreciate that you have redirected 
efforts there, but I am worried that we are not addressing it 
with a sense of urgency and dollars to back that up.
    Mr. Hawley. Well, we are absolutely addressing with a sense 
of urgency, and we had 18,000 of our TSOs trained by the Monday 
before Thanksgiving, and we have continued that training for we 
are probably up to over 25,000 of our folks. These are bomb 
technicians doing the training, not a trainer, but a bomb 
disposal expert, a certified bomb person working individually 
with our TSOs. So we are all over that.
    The reason that we did the scissors and the small tools is 
so that instead of their spending time looking for those, they 
can get monthly the same level of training so that it is 
reinforced. In fact there are a lot more sophisticated things 
we can do with our existing technology and with our existing 
people if we can train them.
    Mr. DeFazio. We can do better things, and I agree, but 
there is still not a substitute for follow-on technology that 
goes directly to the threat of bombs.
    Mr. Hawley. Absolutely. And I would say that to shortcut 
all this stuff, fiscal year 2008, fiscal year 2009 is probably 
the earliest that we can expect to get the full widespread 
deployment across the system of technology that all of us would 
be comfortable with from that perspective.
    So that says to me that in the next couple of years that my 
job is to make the most out of what we have got, and that is 
our approach.
    Mr. DeFazio. Okay. But I guess that raises the issue of the 
number of employees. As you know, some members of Congress who 
never liked the idea of the TSA or federal workforce 
arbitrarily slashed the number a few years ago. A number of 
your predecessors promised Mr. Mica--we then had jurisdiction 
in aviation--that they would do a bottom-up review given the 
fact that we do not have inline EDS in a lot of airports, given 
the fact that we are using other measures that are much more 
labor-intensive throughout the whole system, given the fact 
that we are putting these kinds of exacting demands trying to 
find things, that they would give us a bottom-up review on how 
many people they needed.
    We have never seen that. I think the last time you 
testified I asked you about that, and you said you thought you 
had enough people. But I still question the fact that we have 
not done the bottom-up review. And if that is an adequate 
number of--what we were told by the appropriators was, ``Well, 
we are cutting it because we are buying new technology,'' but 
we are not.
    There are no new letters of intent. We are not buying the 
new technology to go downstairs, so we are still requiring the 
TSA people to yard the bags around, swab them, do all this 
other stuff that might or might not find a bomb. I mean, when 
are we going to get letters of intent? When are we going to 
move to modern systems in our airports?
    Mr. Hawley. The letters of intent refer to, essentially, 
existing technology with EDS, and there is incremental 
improvement that is being rolled out, and there is money in the 
budget for that.
    What was the first part?
    Mr. DeFazio. But there are no new letters of intent.
    Mr. Hawley. Right.
    Mr. DeFazio. For instance, Portland Airport, they do not 
have the money to do it on their own. They will cost share. 
They show that within 18 months you would be saving money every 
day by having fewer TSA employees in that airport.
    Mr. Hawley. Right.
    Mr. DeFazio. And I think you would agree with me that that 
would be a more effective system to find bombs than the current 
system they are using in that airport, and I will not go into 
the details.
    Mr. Hawley. Yes.
    Mr. DeFazio. If it was the modern machines with the 
throughput.
    Mr. Hawley. For the large airports, the inline system is 
the way to go. The issue I think is money, the financing of it. 
It does pay for itself, it is very effective, and I do not 
believe there is enough money in the federal budget for us to 
be able to do that. In the private sector, there is financing 
that--this is something that is financeable--that you really 
have a pretty good basis for.
    And back to the number issue, I think that Mr. Pearce and 
Mr. Lungren both commented on the injuries and absenteeism. I 
cannot be comfortable telling you that we do not have enough 
people when we have the absenteeism and the injury rate that we 
have.
    Mr. DeFazio. I think just to follow up on my chairman's 
concern, I think it has been pointed out if you hired less 
skilled, lower-wage people to yard the bags around where you do 
not have inline EDS, instead of the TSA employees who are paid 
a higher wage and who are supposed to be doing something more 
sophisticated, that would take care of a good deal of that 
problem. I mean, I see these small women trying to yard--I 
mean, people are carrying ridiculous amounts of stuff, 60-pound 
bags.
    Mr. Lungren. I am sure the gentleman meant to say, you see 
small women and small men doing it.
    Mr. DeFazio. Yes.
    Mr. Lungren. Yes.
    Mr. DeFazio. I am a small man, so I did not go there 
because I am small.
    [Laughter.]
    Mr. Lungren. Thank you very much. The gentleman's time has 
expired. And I will sometime be able to figure out how to use 
this thing.
    I will take my 5 minutes on the second round now.
    Mr. Hawley, I think you understand there is sort of a 
bipartisan feeling that we need to move toward application of 
technology sooner rather than later. So I guess following up on 
Mr. DeFazio's questions, I would ask you, is there new 
authority you need or we need to come up with, by way of 
legislation, to allow what some might call creative financing 
for the capital investment necessary to get more of these 
inline systems?
    I understand that not every airport may be physically fit 
for that, but a vast number of them are, particularly the 
larger ones. And if we all agree that that would be the better 
way to go, both in terms of savings and in terms of enhanced 
security, can you tell us, do you need enhanced authority? Do 
we need to do something legislatively so that we can create the 
financing environment?
    Mr. Hawley. Well, that could be a solution, and we will 
have a group meeting with industry--airline, airports, TSA and 
some financial people--to look at that, to come up with 
different models that may in fact make a lot of sense and may 
in fact need some legislative--
    Mr. Lungren. Well, I do not know what the answer is 
entirely, but I will say that I will commit myself and I think 
working with Mr. DeFazio and other members on both sides of 
this aisle that if you can come up with something that makes 
sense in a very short period of time, we will work very hard to 
try and get that done, because the more I look at it, the more 
it appears to me, and I think others on both sides of the 
aisle, that just adding more bodies is not the way to do it. It 
is more effective to have technology utilized that also is put 
into place with the knowledge. And in the context of good 
intelligence that is applied as well.
    Having said that, let me be one that applauds you from the 
agility of your operation for having the courage to try and 
make some decisions that are tough decisions. I mean, no one 
wants the idea that someone could die with a knife. I do not 
like the idea that anybody would be hurt, injured, harmed, 
killed in any way, but the question is, if we have risk 
assessment, what is the greatest risk and how do we try and 
prevent it?
    I am reminded years ago, a friend of mine who was an 
attorney was asked to go see Charles Manson sitting in a 
California prison, and he was asked and requested to go despite 
his better judgment. The correctional officer brought him into 
the interrogation room, locked the door and left. And he told 
me the first thing Charles Manson did when he sat down was pick 
up a pencil and stand up and say, ``I could kill you right now 
by shoving this right in your eye, but I do not want to.'' Now, 
that is a heck of an introduction.
    But my point is, you can kill with this. I can kill with 
these hands. You can do a carotid artery chokehold, which is no 
longer allowed in my police departments right now, and--no, but 
my point is, we could go to the level of absurdity if we said 
we wanted to ensure that no one could ever attack another 
individual.
    And so I know that is a tough decision you had to make. And 
in our March 2 classified briefing, I hope that you can go into 
some detail.
    But maybe just on the record for people that cannot see 
that classified briefing you could give us an idea, did you 
consult with outside people or was it all within the 
department?
    I mean, without getting into the classified information, 
can you give us a sense of what you went through and the kinds 
of considerations that were made in coming to this conclusion?
    Mr. Hawley. Yes, sir. Very quickly, Secretary Chertoff had 
a second-stage review and set a strategy of risk-based 
decision-making. We then applied that to TSA and through a long 
process, which did in fact involve a lot of outside experts, we 
identified that plastic explosives at the passenger checkpoint 
was a very significant vulnerability. And then, at that point, 
I asked our Internal Affairs people to do extensive covert 
testing to find out exactly what was the case in reality as 
well as what we could do about it.
    It was on the basis of that report that we then moved so 
quickly for the training, and we did, as a hurry-up, urgent 
matter, get the training out there and a few other measures, 
including canines at the checkpoint that we do in fact use.
    We said that going forward we have to continue this 
training if we are really serious about closing down this 
vulnerability. That became the risk-based decision-making when 
somebody had to make the call to say, ``What is more important 
from a risk basis,'' and that person was me, and that is the 
call that we made.
    Mr. Lungren. And as we have said, we will follow up on this 
with our classified briefing on March 2.
    I understand the gentleman from Oregon cannot wait to get 
frisked by the TSA employees on his way to--
    Mr. DeFazio. I am about to go enjoy the system, Mr. Hawley.
    I think this is sort of an observation, and I would like 
you to come back to us with this. San Francisco had the first 
inline EDS system in the country in addition to having had 
privatized employees paid at a living wage beforehand. That 
explains a lot of differences there.
    But have you examined the fact that whether or not those 
injuries are coming from a lot of the movement of the baggage 
and you have much lower worker comp claims, in part, at San 
Francisco because they do not have to do that; you have got 
inline EDS?
    Mr. Hawley. We have looked at that, and we have taken apart 
what injuries happened, where, et cetera.
    Mr. DeFazio. Okay. And then the second thing just would be, 
as you know, we are considering H.R. 4439, the TSA 
Administration Reorganization Act. Do you have any thoughts on 
the bill, how it might impact the organizational changes you 
have made or are anticipating?
    Mr. Hawley. On performance management, those things are 
right in line. I think those are entirely constructive, in fact 
necessary, components of successfully managing TSA. So we look 
forward to working with the committee going forward on the 
bill.
    Mr. DeFazio. Thank you.
    Thank you, Mr. Chairman.
    Mr. Lungren. Thank you.
    The gentleman from New Mexico is recognized for 5 minutes.
    Mr. Pearce. If I could just set the record clear. Mr. 
Markey's comments would indicate only that people on the upper 
dais have to take their shoes off, and all of us people on the 
lower dais also take our shoes off when we go through. So let's 
get that straight.
    Mr. Hawley. Those of us at the witness table as well.
    [Laughter.]
    Mr. Pearce. Okay. So it is just becoming more universal 
every day.
    I have got a lot of questions here. If you do not know the 
answers, fine, but I would like to get the answers.
    So, first of all, how many people are at entry-level, 
$28,000? I mean, how many people are at 28,000 bucks?
    Mr. Hawley. Oh. I would have to go break that down.
    Mr. Pearce. My point is that I when I divide $2 billion by 
$43,000, I get $46,00 average across the board, and so somebody 
is quite high averaging the people up.
    And then I would also like to know what constitutes a 
breakdown on the $23,000 per employee for benefits. Because 
when I take one-third of $3 billion, I get $23,000 per employee 
for benefit, and I would like to know the number of bonuses 
paid to management, the amount of bonuses paid to management 
during the last 12-month period.
    How about the average dollars of workers' comp claim?
    Mr. Hawley. I do not know.
    Mr. Pearce. How about the total dollars of workers' comp 
claim?
    Mr. Hawley. Fifty-seven million dollars is what we have in 
the budget.
    Mr. Pearce. Fifty-seven million dollars, and did you spend 
that last year?
    Mr. Hawley. Yes, $36 million for 2004. These lag.
    Mr. Pearce. Thirty-six million dollars. And so do you know 
approximately how many claims that you had? I mean, from a 
management point of view, for you not to have these firmly in 
mind because the dollars per claim is a very significant 
number. And that may be the most important number I would like 
to see from the dais is the number of claims, and I will do my 
own math or you can divide it out and figure out. But I would 
like to know the highest amount you paid and the average 
amount.
    Mr. Mica, in public, recently made the assertion that $5.8 
billion of technology screening devices--and $5.8 billion may 
not be the right number--but he made the assertion that a 
significant purchase of screening devices may be absolutely 
wasted money. Are you aware of any problems with any equipment 
that you are having?
    Mr. Hawley. Well, not to the extent that it would be wasted 
equipment. They require maintenance. Some have better 
performance than others, but I would not characterize it as 
wasted.
    Mr. Pearce. How deep a difficulty is there?
    Mr. Hawley. I think the bigger issue is the fact that our 
EDS machines are coming up to end of their life, and at that 
point there is going to be another wave that we need to do 
something about.
    Mr. Pearce. In the chairman's comments, how big a problem 
do we have, you said it is not probably a complete waste, but 
how much of a percent would be probably wasted or very 
ineffectively spent on previous equipment?
    And where I am going with that is the whole operation of 
the department and the effectiveness, the ability to see new 
technology and evaluate it and get good purchasing.
    Mr. Hawley. Yes. We have a pipeline of technology that goes 
through review at the tech lab, and I think there is the lag 
that I spoke of earlier.
    Mr. Pearce. No. I am asking the other question about how 
much percent of that money that you said is not totally wasted 
when you said it be a mischaracterization. About how much of 
the money would you guess was wasted? Do you think it was 100 
percent effective program for technology that Mr. Mica is 
complaining about?
    Mr. Hawley. I am really not familiar with what Mr. Mica 
said.
    Mr. Pearce. Okay. What about the agile workforce you talk 
about? How much capability do you have to respond to areas 
where the--at what point do you begin to move people in?
    Mr. Hawley. Yes. Well, Katrina is an example, probably a 
very major example, where we moved about 700 people--
    Mr. Pearce. Let's go day to day. That is too exceptional. 
Let's go to the day-to-day when you reach full load and people 
are waiting for an hour and half here at Reagan Airport. When 
do you start moving your agile work force around to shorten 
that?
    Mr. Hawley. We move them every shift. If you go to just 
tracking DCA, for example, on any given day, you will see 
people moving from pier to pier, checkpoint to checkpoint, to 
match particular--
    Mr. Pearce. But you do not have the capability to move 
people from another airport if we have continual delays at 
Reagan, all terminals.
    Mr. Hawley. Yes, sir. We do have that ability.
    Mr. Pearce. What is the trigger point when you start moving 
people from one airport to another?
    Mr. Hawley. If it is a systemic issue, if we think that we 
are misstaffed, for instance--
    Mr. Pearce. So you do not have that quantified as 
subjective if it is systemic. In other words, from a management 
perspective, I think it would be nice to say if the delays are 
over 3 hours for over 3 days, or something, but if you say it 
is just if it is systemic, that is less of--
    Mr. Hawley. Well, we review it daily, and if, for instance, 
an airport is having abnormal wait times, then we get to the 
bottom of it. For instance, with Independence Air ceasing 
operations at Dulles, we look at that and say, ``Okay, what 
does that mean to the staffing,'' and we review all that.
    We look at our peak wait times as the main number, and 
those, as you probably know, are way down in the 12-minute 
maximum on average. So I think that our overall performance on 
wait times is very good.
    Mr. Pearce. Thank you, Mr. Chairman.
    Mr. Lungren. Thank you.
    Gentleman from Massachusetts for 5 minutes.
    Mr. Markey. Mr. Chairman, I want to clarify for the record 
the current policy of President Bush on cargo security. Almost 
none of the cargo on passenger planes is ever inspected before 
it is loaded onboard.
    The screening that Mr. Hawley referred to is paperwork 
checks or dog team sniffing--not the type of scrutiny that 
every passenger and every passenger's bag receives to be placed 
upon that very same plane.
    This cargo is placed underneath the feet of those 
passengers on that plane. It is not given what we consider to 
be screening, that Member of Congress, when we are taking off 
our shoes it gives a great deal of assurance to the other 
hundreds of people looking at us. They think they are secure. 
Little do they know that an al-Qa'ida operative could have put 
cargo on that very same plane. It did not go under the same 
screening.
    The random physical inspections of cargo that Mr. Hawley 
mentioned is full of more holes than Swiss cheese. There are so 
many exemptions to this random screening as to render it 
virtually meaningless.
    But you do not have to take my word for it. In October of 
2005, GAO issued a report entitled, ``Federal Action Needed to 
Strengthen Domestic Air Cargo Security.'' I think that the 
title of that study tells you everything you need to know about 
the problem with cargo on planes. And I ask unanimous consent 
to insert the GAO report in the record at this time.
    Mr. Lungren. Without objection, so ordered. Do you want the 
picture too?
    Mr. Markey. It would, I think, make it like the--the Wall 
Street Journal eventually moved to cartoons and the New York 
Times to color, and so our reports could have a little bit of--
now, let me ask you one final question, if I may, Mr. Hawley, 
and that is on transportation of hazardous materials.
    I have introduced a bill to improve the security of 
shipments of dangerous chemicals such as chlorine, which travel 
through our cities and towns every day and represent tempting 
targets for terrorists. I am concerned, particularly since we 
saw in South Carolina just a couple years ago, a deadly HazMat 
accident can create a mess in a city.
    My question is, why won't the Bush administration support a 
requirement that requires HazMat shipments to be rerouted when 
possible around high-threat areas in the United States? Why 
does President Bush oppose that?
    Mr. Hawley. For the record, first, there are some factual 
things I need to clarify. In fact the screening that occurs 
that we talked about on the random basis does in fact use ETD 
trace machines, which are identical to the ones that are used 
for the passenger at the checkpoint.
    Also, on the counter-to-counter cargo that I mentioned, 
those go through the same technology, including EDS technology, 
that is used for passenger bags. So for the freight that we 
deem to be high threat on a passenger aircraft, we do use 
advanced technology on that in addition to the other layers.
    On the issue of the chlorine in HazMat--
    Mr. Markey. Well, again, and I hate to interrupt you there 
right now, but I maintain that you have no idea what the high 
threat is. In other words, there were two flights that were 
going to LA from Boston on that day that Mohammad Atta hijacked 
those two planes. Today, those two planes every day are still 
flying to L.A., and there is cargo being placed on those 
planes. And it might be some shipment coming down from New 
Hampshire, from Maine, from wherever, 100 miles out, like 5 
a.m. in the morning getting at the airport.
    You have no idea who is actually working at those 
facilities. You have no idea who packed those boxes. You have 
no idea whatsoever. If you are determining that they are not 
high-security risks just because you trust that company, then I 
do not believe that you should be using the word, ``high 
risk,'' when you are just single out a small percentage.
    Because from my perspective, they are all high risk because 
you have no idea where most of this cargo is coming from. You 
do not know who is packing a huge skid of lobsters, packing it 
tight and slipping a bomb into it and sending it down to a 
plane to be sent across our country. You do not know who is 
working there. Could be 100 people whose names you do not even 
know. And it could have been someone just hired yesterday just 
for that very purpose. And they know it goes on. The same plane 
every day with no scrutiny.
    And I just think that by saying that you pick out what you 
think is the high risk for cargo misses the point that almost 
all of it is high risk because of the porous nature of this 
paperwork check that TSA uses hundreds of miles away from an 
airport in order to determine whether or not there is a risk.
    And if you may, just answer the question on the HazMat 
shipments and why President Bush continues to oppose rerouting 
it away from the most dangerous--
    Mr. Lungren. The gentleman's time has expired, but you may 
answer the question.
    Mr. Hawley. The short answer is that in high-threat 
environments, they are voluntarily rerouted. They work with the 
railroads, and we have had no problem at all in that. We also 
work against the whole spectrum of HazMat to identify the most 
hazardous and how we deal with those, how we know where they 
are, and know where they are particularly in patterns. We have 
done very sophisticated analysis on all of this. It is a high 
priority. Also, also we look at motor carrier in addition to 
the rail for HazMat.
    Mr. Markey. I do not think you get enough money to do your 
job. I know it is not your fault. Tax cuts are more important 
and so is the war in Iraq. I just think they continue to nickel 
and dime your area, Mr. Hawley. It is not your fault, but you 
are told to cover a king-sized bed and you are given a regular-
sized bed sheet. No matter which way you pull it, you are going 
to have leave areas of vulnerability that al-Qa'ida can 
exploit.
    Mr. Lungren. Gentleman's time has again expired, and the 
gentlelady from Texas is recognized for 5 minutes.
    Ms. Jackson-Lee. Thank you very much, Mr. Chairman. Let me 
offer my apologies. We had the Management Subcommittee that was 
going on at the very same time as this committee.
    And I do appreciate that we had the kind of overlap that 
did not allow me to be here, Mr. Hawley, at the beginning of 
your testimony. But I am going to use the time with your 
indulgence to speak to a number of issues.
    But I specifically want to start out by just noting, and I 
come from Texas, so I speak nationally to the extent that it 
seems that only 37.2 million in TSA's budget is for non-
aviation transportation security. That seems to be more than 
imbalanced and particularly with the incidents in Baltimore, 
particularly the incidents in New York that had to with--at 
least the New York incident with the transportation concerns.
    I also want to raise the question of the--and forgive me 
for--I have got other issues in my head having just deal with 
the Border Security initiative--but the new expedited travel 
process that was a pilot program. We tried to get it extended 
but I understand now that we may be using it--it may be in 
place, and I would like you to just detail that for me and 
recount for me the budget that is going to move that quickly 
and whether there is enough in the 2007 budget for that.
    And then I want to include--I am just looking at something 
here in Houston on surface transportation but I will get to 
that as well.
    But let me just try to find out what kind of resources, if 
any, TSA has had to utilize in the backdrop of Katrina. Has 
there been any sort of expenditures that one had to utilize? I 
know that airports were shut down, TSA employees removed. I am 
not sure if TSA employees had to be transferred in. TSA 
employees lost their own homes and therefore were impacted 
negatively and whether there is any expenditures as it relates 
to that. And whether or not there is any cleanup or security 
issues that relates to Hurricane Katrina.
    I also want to--I know you are taking some mental notes, 
but I am going to just launch into something at this point, and 
I thank the chairman for his indulgence. For those of us who 
are living in the region and frequently experience hurricanes, 
it is difficult for any of us sometimes to identify with the 
climatic elements of a region. May be difficult for some to 
understand mudslides or earthquakes because they are not on the 
west coast, some to understand, if you will, tornadoes because 
they are not on the plains of Oklahoma.
    But I do think that homeland security is just that, it is 
securing of the homeland. And I have committed myself to making 
this statement at every hearing relevant to homeland security.
    One, this is not a comment on the chairman of this 
committee or the chairman of the full committee, it is a 
comment on, I believe, the duty of the Homeland Security 
Committee to engage in extensive oversight.
    So we are now doing this in the framework of a budget, but 
I believe that we should be, if necessary, meeting once a week 
because maybe if we had been meeting once a week, we would not 
have had the pronouncement that Secretary Chertoff was both 
ineffective and late in his actions on Hurricane Katrina, that 
there was no designated leader to be able to convene and 
coordinate to save possibly some lives out of the 1,300 or 
maybe 1,300 lives.
    So, in essence, you are part of the Homeland Security 
Department, Mr. Hawley; you are TSA. We know we merged 
thousands of thousands of personnel together to get many, many 
departments. But you might speak to this whole question of 
oversight because, frankly, I have given Secretary Chertoff 
today a failing grade and truly believe that he should be 
fired, if not censored or reprimanded.
    And I was very disappointed at his lack of passion, 
concern, blame this person and that person for his failures.
    I am going to yield to you right now. You might just 
quickly answer and also give me your perspective on oversight 
and as well why don't you recount for me the last meeting that 
you had with Secretary Chertoff and whether or not you all are 
engaged in regular meetings, and is there oversight within the 
department?
    Mr. Hawley. Yes. Yesterday I participated in a meeting with 
the heads of the component agencies within DHS and the Deputy 
Secretary where we went through an extensive management review. 
The previous week I met with the Secretary in that same context 
where the Secretary was driving his incident management 
initiatives. Before you came I mentioned that one of the things 
he has brought to the Department is a no excuses priority of 
having the component agencies work well together at the top and 
all the way through. So he has enforced that with weekly 
meetings.
    Ms. Jackson-Lee. But you do not know why that did not work 
during Hurricane Katrina.
    Mr. Hawley. Well, we did have phone conversations among 
ourselves and obviously with our operation centers, but as far 
as TSA and Katrina are concerned, we had, as you may know, 
about 300 or 400 folks who were completely wiped out in terms 
of their homes. We immediately offered them employment at any 
airport in the United States they could get to. So that was a 
successful thing. And for those flying out of DCA today, you 
will see one of our folks from New Orleans.
    We had over 700 people fly in to assist and effectuate the 
largest civilian airlift in United States history prior to 
Katrina, to get that airport moving out without damage or 
violence. And I am very proud of the work that the men and 
women of TSA, both Federal Air Marshals and Transportation 
Security Officers, did.
    And I have outside of my personal office a poster that was 
given to me by someone who worked in Beaumont during Hurricane 
Rita. I know we talked during that time about the concerns 
there, and it was given to me in recognition of the men and 
women who came on zero notice to get on an airplane to evacuate 
those people from Beaumont.
    So it is foremost in our minds, both personally as well as 
professionally, and we have a plan now for any of the 
communities that have hurricane vulnerability to put in place 
their incident management of how we would flow the resources 
amongst them.
    We have a plan where if on any give day within 4 hours, our 
standard is to be able to move 500 Federal Air Marshals 
anywhere and 500 Transportation Security Officers anywhere. 
That is a result from some of the intensity that we felt after 
Hurricane Katrina. We think it is, as you mentioned, an all-
hazard type of capability. We talked before you came about our 
flexibility, and that is an example of that.
    And I think the number one thing Secretary Chertoff has 
brought is clarity of strategy to this Department, where we 
call can in fact line up together and operate in the same 
direction, and I think that is a profoundly important thing to 
happen for a department, as you mentioned. It was thrown 
together with all those folks.
    I get tremendous benefit from working when I need to with 
U.S. Customs and Border Control (CBP) or Secret Service or 
Immigration and Customs Enforcement (ICE) to combine our 
activities.
    Ms. Jackson-Lee. Well, I will just say this: I am an open 
book, but harshly, I saw none of that coordination and 
effectiveness and talent, frankly, during Hurricane Katrina. 
And as a Congressional committee has just rendered a report, 
the title, ``Failure of Initiatives,'' it is so glaring. And I 
frankly think that there has been less than credible 
sensitivity or concern expressed by the leadership of the 
Department short of appearing before committees and being 
complimented for taking it on the chin and doing such a great 
job.
    Again, Secretary Chertoff was before our full committee, 
but because he had to go to lunch, many members were not able 
to fully complete their questions. So might I just say this to 
you as I put these on the record and thank the chairman for his 
indulgence. I am not going to criticize a coin because I 
believe in complementing employees, and I understand you 
purchased these to share with these outstanding workers the 
work that they have done.
    But in the course of Hurricane Katrina, $431 million was 
spent on deadbeat mobile homes that are sunken in mud, and no-
bid contracts were given out without any bidding process. Any 
opportunity for Katrina survivors to work and/or to obtain 
those contracts and the wastefulness of that will be renowned, 
I am sure, in our history books.
    I do not see any streamlining, effectiveness, leadership. 
And, clearly, if those processes were in place, the secretary 
would have been down in the region. And I might I say this: It 
is not my intent to speak ill in the absence of any leadership 
of our government. Sometimes we are not in the same room. I 
would welcome to have the secretary in the room for a period of 
time.
    And the only reason I utilize my comments here because 
Michael Brown was an excellent scapegoat, but Michael Brown 
answered phone calls, whether or not he was adequate in his 
answers, but the secretary of this department did not return 
the phone calls of members who were in the Gulf region.
    It seems to me that that leadership or the opportunity to 
receive information from those of us who halfway understood 
hurricanes would have been the prudent thing to do; he did not.
    And so I conclude--I am going to have questions in the 
record, but I do want you to answer the question of the limited 
amount of money that is for surface transportation, non-
aviation transportation security. Seems that we are misdirected 
in that. And also what structures are being put in place? TSA 
has developed a bad rap, and I am not going to criticize this 
but birthday parties or whatever kind of holiday parties and 
celebratory parties that spent up a lot of money is not a good 
image to really put in place.
    And, also, I like the air marshals. There are some bad 
apples in every group, but I want to be sure that you are 
training, vetting and being responsive to the quality of air 
marshals that we have. That is a question I will put on the 
record because I am not sure if the chairman is gaveling me 
down, but if you have a way of answering it, I will take it.
    But the other point is that, just as I conclude, air 
marshals inform me since we travel back and forth, and that is 
why I end on this note, that the leadership in the department 
was enormously ineffective. That is that they were there and 
offered their service in Hurricane Katrina, and nobody could 
tell them what to do and when they wanted to do work in areas 
that was not their job description, they were told that they 
were not allowed to do that nor were they going to pay 
overtime. And so you just sit down and do not bother to help.
    This is the face of America, the enormous failure starting 
at the top, because homeland security is manmade terror and it 
is the responsible person or entity for natural disasters. And 
you absolutely failed. And these are just small nuances. I am 
sure if I started looking deeper, I would find a whole 
potpourri of failures.
    Mr. Lungren. I would just say that I did not gavel the 
gentlelady down. I extended the time of three time periods 
because we gave three rounds to everybody here.
    Ms. Jackson-Lee. And I thank the chairman.
    Mr. Lungren. If Mr. Hawley would like to respond.
    Mr. Hawley. I would. You mentioned that commemorative coin.
    Ms. Jackson-Lee. I did not criticize you on that.
    Mr. Hawley. I appreciate that, but I want you to know that 
we had the federal air marshals go down there. We had 6,000 
people who were completely desperate, wearing nothing, in some 
cases, other than undergarments, and you know what that was 
like. There were 6,000 people in that airport without much law 
enforcement at all.
    We had our guys go in there, and they volunteered, and we 
had over 500 of them there, and they were literally carrying 
people in all states of dirtiness through the checkpoints, out 
the concourse, down the ladder, across the tarmac, up the 
ladder to the airplane, and into the seats. And they did it for 
24,000 people.
    Ms. Jackson-Lee. And I have no criticism. I guess what you 
are doing is telling a story. You have my accolades. I have no 
criticism of that. I want you to know that air marshals wanted 
to do more and they were restrained by management that they 
could not--there was overtime or they could not a number of 
things. So that is another hearing maybe, but I am telling you, 
this is not a criticism, this is a compliment wishing there was 
some management that could have given them even additional 
opportunity to be helpful.
    Mr. Hawley. I was just going to say that with our 
Transportation Security Officers, I met with them, I was down 
there with them. I did not see anybody at any time say anything 
other than, ``Thank you for the opportunity to serve these 
people.''
    Mr. Lungren. I thank the gentleman for his comments.
    Ms. Jackson-Lee. And I will put questions in the record, 
Mr. Chairman.
    Mr. Lungren. Yes.
    Ms. Jackson-Lee. And thank you.
    Mr. Lungren. And I thank the witness. I believe all the 
members who attended had a chance to have three rounds or the 
equivalent of three rounds for you to answer their questions. I 
appreciate that.
    The members of the committee may have, as you have heard, 
some additional questions that they will submit in writing, and 
we have asked you to respond to these.
    The record will be held open for 10 days, and without 
objection, the subcommittee stands adjourned.
    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
